@ ATTORNEYS AT LAW

= SUITE 5000
150 EAST GILMAN STREET
MADISON, WI 53703-1482

FOLEY & LARDNER LLP POST OFFICE BOX 1497
MADISON, WI 53701-1497
608.257.5035 TEL
608.258.4258 FAK
WWW.FOLEY.COM

WRITER'S DIRECT LINE
608.258.4273,
thowell@foley.com

CLIENT/MATTER NUMBER
086280-0109

February 27, 2020

By Hand Delivery and Electronic Filing

Scott S. Harris

Clerk of Court

Supreme Court of the United States
One First Street, NE

Washington, DC 20543-0001

Re: — Jarchow v. State Bar of Wisconsin, No. 19-831
Dear Mr. Harris:

I represent the Respondents in the above-captioned case, which was docketed on
January 2, 2020. On January 23, 2020, this Court extended the time for filing a response to the
petition for certiorari by 30 days to March 4, 2020. I write to respectfully request a second 30-day
extension of the time to file a response to the petition, to April 3, 2020. Counsel for Petitioners has
been contacted, but have not informed us whether they oppose this request.

This request has been necessitated by the press of other business and the need to
consult and coordinate with the various components of the State Bar on an appropriate response. A
second 30-day extension, to and including April 3, 2020, will provide us with sufficient time to fully
analyze the arguments raised in the petition for certiorari and to coordinate with our client on a
complete response.
Sincerely,

Roberta F. Howell
RFH:pmw

ce: David B. Rivkin
Counsel for Petitioners

AUSTIN DETROIT MEXICO CITY SACRAMENTO TAMPA

BOSTON HOUSTON MIAMI SAN DIEGO WASHINGTON, D.C.
CHICAGO JACKSONVILLE MILWAUKEE SAN FRANCISCO BRUSSELS
DALLAS. LOS ANGELES NEW YORK SILICON VALLEY TOKYO

DENVER MADISON ORLANDO TALLAHASSEE

4815-9465-3878.1
FOLEY

FOLEY & LARDNER LLP

February 27, 2020
Page 2

CERTIFICATE OF SERVICE
[hereby certify that on February 27, 2020, a true and correct copy of the foregoing
was filed via the Court's CM/ECF system and served via electronic filing upon consel of record in

this case. | also certify that a copy of the foregoing was sent via first class mail, postage prepaid, to:

David B. Rivkin

BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731 (phone)

(202) 861-1783 (fax)
drivkin@bakerlaw.com

Dated: February 27, 2020

/s/ Roberta F. Howell

Roberta F. Howell

FOLEY & LARDNER LLP

150 E. Gilman Street, Suite 5000
Madison, WI 53703

P (608) 258-4273

F (608) 258-4258
thowell@foley.com

4815-9465-3878.1
